ANNUAL AUDIT,
INSPECTION, AND
EVALUATION PLAN
FISCAL YEAR 2014


                   October 18, 2013
NATIONAL RAILROAD
PASSENGER CORPORATION




INSPECTOR GENERAL’S MESSAGE

I am pleased to present the Amtrak Office of Inspector General’s Fiscal Year 2014
Annual Audit, Inspection, and Evaluation Plan. This plan provides a road map to
accomplishing our mission of conducting independent and objective audits,
inspections, and evaluations to promote economy, efficiency, and effectiveness in
Amtrak’s programs and operations while preventing and detecting fraud, waste, and
abuse. This plan outlines focus areas where we intend to undertake work, summarizes
our most recent reports, discusses our ongoing work, and identifies potential future
work focus areas. We extend a sincere thanks to all of those who provided input to
this plan.

We are continually working to improve our planning process and welcome
suggestions as well as recommendations about future work that we should consider.
Please direct any suggestions or questions to me; Tom Howard, Deputy Inspector
General; David Warren, Assistant Inspector General, Audits; or Calvin Evans,
Assistant Inspector General, Inspections and Evaluations. We can all be reached at
202-906-4600.




Ted Alves
                                              TABLE OF CONTENTS



INTRODUCTION ............................................................................................................2

GOVERNANCE ..............................................................................................................3

ACQUISITION AND PROCUREMENT ......................................................................8

INFORMATION TECHNOLOGY ...............................................................................11

TRAIN OPERATIONS AND BUSINESS MANAGEMENT ...................................14

HUMAN CAPITAL MANAGEMENT .........................................................................20

SAFETY AND SECURITY ..........................................................................................22

ASSET MANAGEMENT .............................................................................................25

OIG MISSION AND CONTACT INFORMATION ...................................................28




                                                                                                                             1
INTRODUCTION

During Fiscal Year (FY) 2014, we will focus our audit, inspection, and evaluation efforts
on these areas:

      Governance
      Acquisition and Procurement
      Information Technology
      Train Operations and Business Management
      Human Capital Management
      Safety and Security
      Asset Management

We identified these areas based on their importance to Amtrak in (1) achieving
operational and financial excellence and (2) reducing risk. To do this, we obtained input
from our staff, Amtrak’s Board of Directors, Amtrak management, and Federal Railroad
Administration officials. We also considered areas of congressional interest based on
hearings, discussion with congressional staff, and other information sources.

For each of these areas, this plan presents a brief overview describing:

      the area’s importance in reducing Amtrak’s risks to achieving operational and
       financial well-being
      recent Amtrak OIG reports
      ongoing audits/inspections and evaluations
      potential audit/inspection and evaluation topics for FY 2014
      potential areas of focus beyond FY 2014

As resources become available to initiate new work, we will select from the potential
topics identified for FY 2014. Based on current resource constraints and the likelihood
of unpredictable priority work, we may not address all of the potential topics in FY
2014. Topics not addressed will be considered during our FY 2015 planning process.




                                                                                          2
GOVERNANCE
Over the past 10 years, corporate governance and risk management have received
increased attention. Corporate governance is defined as a system of internal controls
encompassing policies, processes, and people. It serves the needs of shareholders and
other stakeholders by directing and controlling management activities with good                3
business savvy, objectivity, accountability, and integrity. Effective processes for
governance and risk management are essential in helping to avoid an event that could
prove catastrophic to an organization’s financial and operational health. Our
governance audit/evaluation work will focus on enhancing the stewardship of company
resources by evaluating senior leadership’s processes, policies, and activities to identify
areas where corporate risk can be reduced and governance can be improved.

Recently Issued Reports (Governance)

Claims Program: Use of Best Practices Would Strengthen Management Controls (Audit Report
OIG-A-2012-016, 8/14/2012)

   Our objective was to review the adequacy of management controls over the claims
   program from initial receipt through settlement of claims. We compared Amtrak’s
   management controls with best practices for management controls. Our comparison
   showed that adopting some best practices can strengthen the management control
   environment over the claims program. In commenting on the draft report, the Vice
   President, General Counsel, stated that the Law department and Claims Office
   agreed with all of our recommendations and have begun or plan to take corrective
   actions. The actions Amtrak has taken and plans to take meet the intent of our
   recommendations.

Quality Control Review: Amtrak’s Independent Public Accountant Met Applicable Auditing
Standards for the Fiscal Year 2012 Audit of the Consolidated Financial Statements (Audit
Report OIG-A-2013-004, 2/1/2013)

   To help ensure audit quality and compliance with auditing standards, we monitored
   the audit activities of the independent certified public accounting firm that audited
   Amtrak’s consolidated financial statements for the year ended September 30, 2012.
   Our review disclosed no instances in which the public accountant did not comply, in
   all material respects, with generally accepted government auditing standards.

   The public accountant concluded that the consolidated financial statements fairly
   presented, in all material respects, the consolidated financial position of Amtrak and
   its subsidiaries on September 30, 2012, and the consolidated results of their




                                                                                           3
   operations and cash flows for the year then ended in conformity with generally
   accepted accounting principles.


Data Analytics: Most Procurement Card Controls are Effective, but Some Need to be
Strengthened (Audit Report OIG-A-2013-019), 9/26/2013)

   The Finance department established policies and procedures for controlling the use
   of procurement cards (company credit cards or PCards) that, with a few exceptions,
   appear to be effective based on the level of compliance by employees. Controls can
   be strengthened in some areas, including split transactions and single purchase
   limits, single and monthly purchase limits, unauthorized purchases, cancelling of
   unused cards, employees with higher purchase limits than requested, and uncertain
   continued need for a PCard. Our analysis of PCard controls did not identify any
   significant control vulnerabilities in areas such as former employees retaining active
   cards, employees having multiple cards, and purchases made on lost/stolen cards.
   We recommended, and the Acting Chief Financial Officer agreed, to direct the
   Amtrak Controls group to assess the adequacy of controls and strengthen where
   appropriate.

Data Analytics: Enhanced Controls Needed To Avoid Duplicate Payments (Audit Report OIG-
A-2013-018, 9/20/2013)

   As of September 20, 2013, the Finance department recovered or is in the process of
   recovering about $1.9 million in duplicate invoice payments identified by this work.
   The Finance department is reviewing another $4.8 million in potential duplicate
   payments we identified. Private-sector best practice organizations establish controls
   over payment processes that prevent and detect duplicate invoices prior to payment.
   Duplicate payments have three major negative impacts on organizations: the direct
   loss from overpaying for goods and services, the cost of resources to attempt
   overpayment recoveries if duplicate payments are subsequently identified, and the
   unnecessary reductions in cash balances—even if overpayments are recovered.

   We recommended applying cost and benefit criteria in seeking recovery of potential
   duplicate payments—valued at about $4.8 million—and directing the Amtrak Controls
   group to assess the adequacy of vendor payment process controls and take corrective
   actions as appropriate. The Acting Chief Financial Officer agreed to our
   recommendations.




                                                                                        4
Audit of Grant Agreement: Next Generation Equipment Committee Materially Complied with
Terms of the Grant Agreement (Audit Report OIG-A-2013-012, 3/27/2013)

   The Next Generation Equipment Committee (the Committee) materially complied
   with the criteria governing grant expenditures, met the schedule for deliverables
   contained in the grant provisions, and has a generally sound system of internal
   controls to govern its activities. However, we did identify a few relatively minor
   instances, totaling $11,345, in unsupported or questioned costs for services billed by
   one contractor. We also identified opportunities to strengthen internal controls to
   help reduce vulnerabilities to waste or abuse in support service agreement approval,
   timely review and payment of invoices, and processing of grant reimbursement
   requests.

   The Amtrak Acting Chief Financial Officer and the Committee’s Finance
   Subcommittee Chairman concurred with our recommendations to seek
   reimbursement for the questioned costs, obtain documentation for the unsupported
   costs, and take action to improve certain internal controls.

Corporate Governance: Planned Changes Should Improve Amtrak’s Capital Planning Process,
and Further Adoption of Sound Business Practices Will Help Optimize the Use of Limited
Capital Funds (Evaluation Report OIG-E-2013-020, 9/27/2013)

   The objective of this evaluation was to determine the extent to which Amtrak’s
   capital planning process reflects sound business practices in developing project
   proposals, selecting capital projects to fund, and evaluating project outcomes.

   We found that Amtrak’s initial changes to the capital planning process are generally
   consistent with sound business practices used by other organizations, and those
   changes should improve the process. However, our analysis shows that the process
   could be further improved if management fully adopts sound business practices
   across each phase of the process. An enhanced process will help management ensure
   that it optimizes the use of capital funds to best support its strategic objectives.

   To assist management’s ongoing efforts to improve the company’s capital planning
   process, we recommended that Amtrak take a number of actions to build the
   capability to fully implement the sound business practices described in this report.
   In these recommendations, we included steps to develop sound project proposals,
   review and rank proposals according to sound practices, tighten controls over the
   contract approval process, and implement current policy to evaluate the outcome of




                                                                                          5
    capital projects. Amtrak’s President and Chief Executive Officer concurred with our
    recommendations.

Ongoing Audits/Inspections and Evaluations (Governance)

   Monitoring the Work of Amtrak’s Independent Public Accountant (IPA) Conducting the FY
    2013 Financial Statement Audit and Single Audit. This audit is designed to determine
    whether the IPA performed the audit of Amtrak’s Consolidated Financial
    Statements and Amtrak’s Single Audit in accordance with standards, and to follow
    up on prior recommendations made to the Audit and Finance Committee and Chief
    Financial Officer to improve Amtrak’s oversight of the IPA.

   Capital Program Management. This audit is evaluating the adequacy of Amtrak’s
    capital program management practices, including policies and procedures for
    managing its capital programs in estimating, scheduling, overseeing, and closing out
    projects.

   Top Management and Performance Challenges Report. This report is assessing the major
    management challenges facing Amtrak. This is our first such report, and we plan to
    update our assessment of management challenges annually.

FY 2014 Potential Audits/Inspections and Evaluations (Governance)

   Financial Statement Oversight. This audit will determine whether the IPA performed
    the audit of Amtrak’s Consolidated Financial Statements and Amtrak’s Single
    Audit in accordance with standards.

   Budgeting and Cash Management. The objective of this audit would be to determine if
    Amtrak is following best practices in developing its annual budget and managing its
    cash.

   Business Line Accounting System and Rules. Amtrak is reorganizing its Operating
    department into business lines. The objective of this audit would be to determine if
    Amtrak’s financial accounting system and business rules have been modified
    sufficiently to support business line accountability.

   Reasonableness of Host Railroad Administrative Charges. Amtrak pays host railroads to
    operate on their tracks. Included in the total costs that Amtrak pays the host
    railroads are certain administration charges. The objective of this audit would be to




                                                                                            6
    determine if these administration charges are reasonable, well-supported, and reflect
    the level of services provided by host railroads.

   Final Audit of Section 305 Grant Compliance. The objective of this audit would be to
    determine if the Equipment Pool Committee formed under Section 305 of PRIIA is in
    compliance with the terms of the grant agreement, including the propriety of grant
    expenditures, and if the grant expenditures are supported with adequate
    documentation and in accordance with the terms of the agreement.

Potential Focus Areas beyond FY 2014 (Governance)

    Potential topics for work beyond FY 2014 in governance include assessing Amtrak’s
    progress implementing its strategic plan. In addition, we will continue to oversee the
    work of the independent public accountant conducting Amtrak’s financial statement        7
    audits, and we will continue to develop reports on top management challenges.
    Other potential areas for review include Amtrak’s continuity of operations planning
    and the corporation’s change management process.




                                                                                             8



                                                                                        7
ACQUISITION AND PROCUREMENT
Over the next 30 years, Amtrak is planning to spend more than $150 billion to improve
its infrastructure and equipment along the Northeast Corridor. The infrastructure
improvements are designed to bring the Northeast Corridor to a state of good repair by
2025, including repair or replacement of bridges, catenary, signals, and tracks. The
equipment improvements include the purchase of 70 new electric locomotives,
additional high-speed train sets, and, ultimately, the next generation of high-speed rail.1
For FY 2014, Amtrak has requested more than $1.8 billion for infrastructure
improvements and equipment acquisitions. To ensure a high probability of success for
these programs, Amtrak must effectively engage its Procurement and Materials
Management department to acquire the goods and services necessary to achieve these
objectives.

To promote economy and effectiveness in Amtrak’s planning for and oversight of the
acquisition and procurement of goods and services, our planned work for FY 2014 will
focus on vendors and suppliers of parts and materials and on controls over various
procurement processes and agreements. We will also conduct audits of individual
procurement actions across the main acquisition and procurement phases: planning,
project selection, contract award, implementation, and closeout. Our work will identify
opportunities for Amtrak to improve the use of its resources and identify cost savings
that may ultimately reduce Amtrak’s reliance on federal subsidies.

Recently Issued Reports (Acquisition and Procurement)

Acela Car Purchase: Questioned Costs Identified in Price Proposal (Audit Report OIG-A-
2013-002, 12/4/2012)

    A potential contractor’s price proposal contained amounts that, in some cases, were
    not based on well-supported and/or reasonable cost data. As a result, we questioned
    those costs. We made two recommendations aimed at helping lower the negotiated
    contract price and retaining the audit provision in the terms and conditions of the
    final contract. Management agreed with our recommendations and, considering our
    work and other factors, decided to forgo purchasing the additional Acela cars. Based
    on this information, a portion of the cost avoidance is attributable to our report.




1Additional information pertaining to Amtrak’s vision for the Northeast Corridor can be found in The
Amtrak Vision for the Northeast Corridor: 2012 Update Report.




                                                                                                       8
American Recovery and Reinvestment Act: Opportunities Exist to Recover Funds and Reduce
Future Costs by Improving Procurement Policies (Audit Report OIG-A-2013-016, 7/29/2013)

    The policies, procedures, and practices used by the Procurement and Materials
    Management department provided assurance that change orders to its ARRA
    contracts were, with minor exceptions, adequately supported and allowable under
    the contracts’ terms and conditions. To the credit of Procurement and Materials, we
    found an error rate of only 1.2 percent. This low error rate was in part attributable to
    Procurement and Material Management’s enhancement of the review process for
    ARRA funds—by engaging contractors to review the fairness and reasonableness of
    proposed change order values. The errors we identified amounted to approximately
    $824,042. Management concurred with three of our four recommendations. We
    revised the fourth recommendation in response to Amtrak’s comments.

Ongoing Audits/Inspections and Evaluations (Acquisition and Procurement)

   Review of Procurement and Materials Management Department Activities as Compared to
    Best Practices. Our objective is to gain an understanding of Procurement and
    Materials Management department’s processes and compare them to best practices.              10
    Our work is limited to identifying criteria and observing conditions in the areas we
    reviewed and is intended to identify areas in which the OIG will conduct future,
    detailed audits.

FY 2014 Potential Audits/Inspections and Evaluations Topics (Acquisition and
Procurement)

   Amtrak’s Management of its Supplier Base (Strategic Sourcing). Amtrak relies on many
    suppliers and vendors to provide equipment, parts, and supplies needed to
    maintain and operate its rolling stock and infrastructure. The objective of this audit
    would be to review how well Amtrak is strategically managing the health of its
    supplier base during a period of increased globalization and consolidation within
    the industry.

   Management and Availability of Spare Parts. The objective of this audit would be to
    identify best practices in material management and compare them to Amtrak’s
    practices in managing spare parts for certain types of equipment.

   Adequacy of Controls over Payment Requests. Amtrak policy states that the use of
    payment requests is restricted to low-dollar, non-recurring purchases. Recent
    discoveries suggest that payment requests may be widely used to circumvent
    established procurement procedures, which is a violation of policy. This audit will



                                                                                             9
    determine the extent to which payment request procedures are being followed and
    the impact on Amtrak when they are not.

   Best Practices for Identifying and Developing Procurement Skills. In FY 2012, Amtrak
    spent $2.4 billion, or 54 percent of its budget, on goods and services. To ensure that
    it is procuring the highest quality goods and services at reasonable prices, the
    corporation’s procurement workforce must have the necessary skills and training.
    This audit would review Amtrak’s procurement training practices and skill sets and
    compare them to industry best practices. The objective of this audit would be to
    assess the adequacy of Amtrak’s workforce planning program in identifying the
    requisite skills and developing the capability and capacity of its procurement
    personnel.

   Adequacy of Controls over Master Service Agreements. The objective of this audit would
    be to determine the extent to which controls exist over Master Service Agreements
    and how well they are being followed and enforced.

Potential Focus Areas beyond FY 2014 (Acquisition and Procurement)

    Potential topics for work beyond FY 2014 in the acquisition and procurement area
    include continuing to review Amtrak’s acquisition and procurement policies,
    processes, and practices to identify systemic risks and make recommendations for
    improvement. Our efforts would include conducting pre-award audits of selected
    major procurements, and evaluating Amtrak’s contracting procedures to determine
    if they are following industry best practices.




                                                                                        10
INFORMATION TECHNOLOGY
Passenger railroad businesses are labor-, capital-, and data-intensive. These businesses
rely increasingly on modern information technology (IT) to improve labor and asset
productivity and deliver safe and reliable customer service. At the same time,
businesses are increasing their use of data analytic tools to enhance internal controls
and improve the effectiveness and efficiency of their operations. Amtrak recognizes that
many of its information systems and IT infrastructure in reservations and ticketing,
supply chain, and operations require steady investment and continuous improvement
to prevent obsolescence and critical failure. These systems and infrastructure are
essential for the continuity and growth of business operations. Our work will focus on
ways to improve the effectiveness and efficiency of IT programs and the use of data
analytic tools.

Recently Issued Reports (Information Technology)

Information Technology: Opportunities Exist to Improve Services, Economies, and
Contract Performance (Audit Report OIG-A-2013-013, 4/16/2013)

    The IT department achieved some of the expected results from the Information
    Technology Infrastructure Initiative program, but the department could have more
    effectively planned and managed its approach to acquiring IT services, better
    administered the contract, and held the contractors more accountable for meeting
    contract terms. As a result, the IT department has not consistently received the level
    of IT support services it contracted for, continues to incur higher than necessary IT
    support costs, and faces an increased risk of costly interruptions to key business
    operations. For example, although the IT department did not fully track program
    savings and contract and internal costs, we noted that the contract’s original scope
    of services was reduced to meet approved budget levels. Further, we identified up
    to $27 million in potential savings through the end of the contract, and $4.4 million
    in payments that could have been avoided with closer management attention.

    Management agreed with all of our recommendations and identified ongoing and
    planned actions to address them, as well as the officials responsible for
    implementing them. Management recognized the nature and significance of these
    weaknesses and quickly began working aggressively to address them.

Strategic Asset Management Program: Opportunities to Improve Implementation and Lessons
Learned (Evaluation Report OIG-E-2012-012, 5/31/2012)

   Although Strategic Asset Management (SAM) program managers anticipated a
   certain level of implementation issues, the number, significance, cost, and time



                                                                                       11
    needed to address them have all been greater than anticipated. Significant issues
    continue to surface, indicating that the system is not yet stable. As a result, more
    than a year after deployment, the company is still dealing with the adverse effects
    on business operations and financial performance.

    This situation occurred primarily due to design and configuration shortfalls,
    insufficient requirements-gathering and testing, inadequate training, and
    underdeveloped user-support organization. Organizational silos and
    communication gaps also contributed to the implementation issues. The complexity
    of the design approach was an underlying contributor to the issues in each area.
    The dedicated work of many business users and the SAM team has helped to
    address many implementation issues. Nonetheless, challenges remain, and the time
    and cost needed to stabilize the new system, realize its benefits, and transform
    business processes are uncertain.

Ongoing Audits/Inspections and Evaluations (Information Technology)

   Data Analytics. The IT audit team is playing a key role in leading the data analytics
    work that is being conducted in other focus areas. The team provides technical
    assistance as needed to other audit and investigative teams. The team will also
    develop short- and long-term plans to expand the use of data analytics capabilities
    within the OIG.

FY 2014 Potential Audits/Inspections and Evaluations Topics (Information
Technology)

   Next Generation Reservation System (ResNG). The objectives of this audit would be to         14
    determine if (1) the appropriate governance structure and processes are in place to
    ensure the successful implementation of the program and realization of the program
    benefits projected; (2) adequate program management controls exist and best
    delivery practices are being followed to meet the program scope, budget and
    schedule; and (3) relevant risks have been identified and corresponding mitigating
    controls have been designed for key business processes and system interfaces.

   Centralized Electrification and Traffic Control (CETC) System: Amtrak’s Centralized
    Electrification and Traffic Control (CETC) system controls rail traffic, signaling, and
    power supply in the Northeast Corridor (NEC). CETC is comprised of two sub-
    systems: the Central Traffic Control (CTC) subsystem, which controls the
    interlockings and signals for train operation and separation, and the Supervisory
    Control and Data Acquisition (SCADA) subsystem, which continuously monitors
    the status of the power distribution systems and operates breakers and switches to



                                                                                            12
    de-energize or restore power to various track sections as required. Our audit
    objective will be to review the general and application controls of the CETC system
    to ensure safe and reliable operation of trains in the NEC.

   Data Analytics. Our office will continue a multi-year data analytics project to assess
    the effectiveness of internal controls in Amtrak’s various business processes, such as
    Purchase to Payment, Materials Management, Payroll, Human Capital, and Claims.
    This project relies heavily on advanced data analytic technology to review the entire
    population of business transactions with the goal to identify opportunities to control
    risks and improve the efficiency and effectiveness of business operations. We are
    planning to incrementally build and refine analytic tests to prevent, detect, and deter
    instances of fraud, waste, and abuse in the company.

Potential Focus Areas beyond FY 2014 (Information Technology)

    Potential topics for IT work beyond FY 2014 include assessing the economy,
    efficiency, and effectiveness of some of Amtrak’s key IT programs—such as the e-
    Ticketing System, Food and Beverage Point of Sale System, and the Infrastructure
    Management System—in addition to continued data analytics support.




                                                                                        13
TRAIN OPERATIONS AND BUSINESS MANAGEMENT
Amtrak operates more than 300 daily trains on more than 21,000 miles of rails—serving
528 stations in 46 states, 3 Canadian provinces, and the District of Columbia. In 2013,
Amtrak moved more than 31 million intercity passengers. In addition to evaluating
Amtrak’s compliance with laws and federal regulations, we are continually looking for
opportunities for Amtrak to improve the effectiveness and efficiency of its train
operations and business management.

Recently Issued Reports (Train Operations and Business Management)

Food and Beverage Service: Initiatives to Help Reduce Direct Operating Losses Can Be
Enhanced by Overall Plan (Audit Report OIG-A-2012-020, 9/7/2012)
   We identified two areas where food and beverage program management could be
   improved—accountability for program results and program-wide planning. These
   management weaknesses stem from a fragmented program management structure.
   Two departments share responsibility for food and beverage service, but neither has
   a goal to reduce direct operating losses. On July 19, 2012, the Vice President,
   Operations, announced the establishment of a new position—the Chief of Customer
   Service in the Transportation department—and the transfer of Marketing and
   Product Development’s food and beverage service activities to Operations as of
   October 1, 2012. We recommended that Amtrak develop a 5-year plan for reducing
   its direct operating losses on food and beverage service, including specific initiatives
   and annual operating loss reduction goals while retaining needed services. Amtrak
   concurred with our recommendation.

Completion of Amtrak Invoice Review Work
   The following five reports conclude our body of work reviewing invoices from host
   railroads. The cumulative effect of this work has yielded significant results. Over
   time, we have reviewed invoices totaling about $1.1 billion and identified more than
   $91.3 million in overpayments to host railroads. As a result, Amtrak has realized
   more than $38.4 million in savings from settlements with host railroads and has the
   opportunity to potentially recover another $23.8 million in overpayments identified
   in 13 reports issued since August 2001.

Amtrak Invoice Review: Undetected Inaccuracies Resulted in Overpayments (Audit Report
OIG-A-2013-006, 2/15/2013)

   BNSF Railway (BNSF) invoices to Amtrak for on‐time‐performance payments from
   July through December 2006 were not consistently accurate. The invoices were not




                                                                                         14
   accurately calculated in accordance with the operating agreement between Amtrak
   and BNSF. The invoice inaccuracies went undetected, and Amtrak overpaid BNSF
   more than $2.1 million for the 6‐month period. We recommended that Amtrak’s
   Acting Chief Financial Officer take action to recover the $2,115,440 that Amtrak
   overpaid BNSF for on-time-performance incentives.

Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments (Southern Pacific)
(Audit Report OIG-A-2013-007, 3/13/2013)

   Southern Pacific’s invoices to Amtrak for services from January 1997 through
   December 1999 were inaccurate in 7 of the 19 service categories reviewed. The
   inaccuracies included charges that were not adequately supported, amounts that
   were not specifically allowed by the amendment agreement, and duplicated
   services. As a result, Amtrak overpaid the host railroad $1,205,626 for services for
   the 36-month audit period.

   In an earlier report, we reported that Amtrak completed implementing
   recommendations to improve the invoice-review process, including new invoice-
   review policies and procedures. We believe that the actions Amtrak has taken, if
   sustained, should improve the review process and help ensure that invoice errors
   are detected before payments are made. We recommended that Amtrak take action
   to recover the $1,205,626, and Amtrak’s Acting Chief Financial Officer agreed.

Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments (BNSF)
(Audit Report OIG-A-2013-008, 3/26/2013)

   BNSF invoice charges generally complied with the terms of the operating agreement
   for the use of tracks, facilities, and services provided to Amtrak. However, the
   amounts invoiced by BNSF were not always accurate, and some contained errors
   that were not detected by Amtrak. We identified approximately $97,000 in
   overpayments for six service categories audited. For those service categories, invoice
   errors went undetected because Amtrak’s host railroad invoice administration
   group did not have an adequate invoice-review process in place during the audit
   period. For a seventh service category—station utility—Amtrak continued to pay
   BNSF for utility costs at as many as 16 stations while it was also directly paying the
   utility service providers for the same services. We identified overpayments of more
   than $1.3 million for station utilities costs.




                                                                                          15
   We recommended that Amtrak take action to recover more than $1.4 million in
   overpayments identified in this report, and Amtrak’s Acting Chief Financial Officer
   agreed. In addition, Amtrak’s Chief Transportation Officer agreed to direct the
   development and implementation of procedures to improve its controls over
   monitoring station utility operational changes.

Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments (Metro North)
(Audit Report OIG-A-2013-010, 3/27/2013)

    Metro North invoice amounts were not consistently accurate. The inaccuracies were
    found in invoices that were not calculated in accordance with the operating
    agreements between Amtrak and Metro North. The operating agreements serve as
    the basis for determining incentive payments to host railroads. Our review of
    six Metro North invoices from the 72-month period (January 2005 through
    December 2010) disclosed invoice inaccuracies of almost 19 percent—more than
    $150,900 of the more than $804,000 of invoices reviewed. Metro North agreed with
    the methodology of applying the 19 percent error rate to all invoices for the audit
    period, because the types of errors found were consistent over the selected months
    reviewed. Doing so resulted in estimated invoice inaccuracies totaling about
    $1,223,000 for the period. Amtrak’s invoice-review process did not detect any errors
    prior to making the on-time-performance payments for this period.

    We recommended and management agreed to enter into appropriate conversations
    with Metro North to pursue any amounts that are recoverable under the law and
    within the terms of the applicable operating agreement between Amtrak and Metro
    North.

Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments (Union Pacific)
(Audit Report OIG-A-2013-011, 3/28/2013)

    Union Pacific’s invoices to Amtrak for on-time-performance incentives and service
    payments from June 1995 through December 1999 were not always accurate or
    adequately supported. The invoice inaccuracies went undetected, and Amtrak
    overpaid Union Pacific by $3.2 million for on-time-performance incentives for the
    55-month period. We also identified inaccurate invoices for services amounting to
    $79,069, and an invoice credit due Amtrak for $46,389 that has not been collected.
    These amounts are in addition to about $41,000 in on-time-performance incentives
    and services errors detected by Amtrak’s invoice-review process.

    We recommended and management agreed to pursue any amounts that are
    recoverable under the law and within the terms of the applicable operating
    agreement between Amtrak and Union Pacific.



                                                                                          16
Asset Management: Amtrak is Preparing to Operate and Maintain its New Locomotives, but
Several Risks to Fully Achieving Intended Benefits Exist (Evaluation Report OIG-E-2013-021,
9/27/2013)


    Amtrak is replacing its fleet of electric locomotives at a cost of $466 million. Because of
    the significance of these locomotives to the company’s plans for improving its financial
    performance and because they are scheduled to begin revenue service in October 2013,
    we assessed the extent to which Amtrak is prepared to effectively and efficiently
    operate and maintain the new locomotives in service.

    We found that Amtrak has taken some significant actions and developed plans to
    introduce the new locomotives into revenue service once they are delivered;
    however, as of July 1, 2013, some important actions and plans that could reduce
    Amtrak’s risk had been delayed or had not been finalized, including:
             improving its facilities to test and maintain the locomotives, raising
              questions about whether these improvements are needed and, if so, the
              most cost-effective way to fund the construction

             scheduling the retirement of the current locomotives, potentially
              causing Amtrak to continue to spend more than necessary on
              maintaining and overhauling locomotives that it plans to remove from
              active service over the next three years

             finalizing practices for maintaining the new locomotives, which could
              impact their availability or reliability if they are not completed before the
              locomotives are put into service

             procuring spare parts, increasing the risk that either parts might not be
              available when needed or might cost more than necessary

    To help the company prepare to efficiently operate and maintain the new
    locomotives, we recommended several actions. These include assigning authority
    and responsibility for managing and synchronizing these efforts to ensure that all
    plans are finalized in a cost-effective and timely manner—and also to ensure that all
    associated tasks are documented in a policy to guide this and future procurements.

    Amtrak’s Vice President of Operations agreed with our recommendations, and the
    company has taken actions that appear to be mostly consistent with the intent of
    our recommendations.




                                                                                          17
Ongoing Audits/Inspections and Evaluations (Train Operations and Business
Management)

   Food and Beverage Service. We are focusing on identifying ways to help mitigate the
    food and beverage direct operating losses by examining best practices used by other
    public- and private-sector entities that provide food and beverage services to
    passengers, such as other passenger railroads, cruise lines, and airlines.

   PRIIA Implementation Progress Follow-up. We previously reported on Amtrak’s
    progress in implementing the Passenger Rail Investment and Improvement Act of
    2008. The act requires a follow-up review to be completed by October 2013.

   Follow-up Audit on Progress in Achieving Compliance with the American with Disabilities
    Act. Our objective is to assess Amtrak’s progress toward achieving ADA-compliance
    at stations it serves. Our primary focus is to assess the progress made addressing
    issues raised in our prior report.

   Controls over the Disposition of Equipment Purchased with ARRA Funds. Our objective is
    to assess the adequacy of controls over the disposition of equipment purchased with
    ARRA funds, such as computers, furniture, and tools.


FY 2014 Potential Audits/Inspections and Evaluations Topics (Train Operations
and Business Management)

   Crew Scheduling and Extra-Board Management. The objective of this evaluation would
    be to review Amtrak’s crew scheduling and extra-board management practices,
    compare them to best practices at other railroads and transportation providers, and
    make recommendations to improve the efficiency and effectiveness of these
    practices.

   Fuel Management. The objective of this review would be to review Amtrak’s fuel
    management practices, compare them to best practices at other railroads and
    transportation providers, and make recommendations to improve the efficiency and
    effectiveness of these practices.




                                                                                         18
Potential Focus Areas beyond FY 2014 (Train Operations and Business
Management)

  Potential topics for work beyond FY 2014 in the train operations and business
  management area include evaluating Amtrak’s efforts to improve the performance
  of its locomotive fleets and reviewing Amtrak’s advertising program.




                                                                               19
HUMAN CAPITAL MANAGEMENT
Amtrak employs approximately 18,000 agreement-covered (union) employees and
approximately 3,000 non-agreement-covered (management) employees throughout the
United States. The company faces many of the same challenges and opportunities faced
by most other companies of its size in efficiently and effectively managing this large,
diverse workforce. Because Amtrak is a service organization and the largest intercity
passenger rail operator in the United States, the effective development and
management of its talented employees are critical to its success. Our work will focus on
identifying opportunities for Amtrak to improve the efficiency and effectiveness of its
human capital management policies and practices.

Recently Issued Reports (Human Capital Management)

Human Capital Management: Weaknesses in Hiring Practices Result in Waste and Operational
Risk (Audit Report OIG-A-2012-14, 7/19/2012)
   We found significant management control weaknesses in Amtrak’s hiring practices
   in general, particularly in its use of background investigation information. These
   weaknesses have led to a waste of resources and the hiring of employees with past
   performance and other concerns, which create risks to Amtrak’s operations,
   employees, and passengers. A review of hiring practices for 50 cases, with an
   emphasis on the use of background information, showed that the practices did not
   effectively ensure that newly hired employees were qualified, honest, reliable, and
   did not pose a security threat.
   We recommended that the Chief Human Capital Officer revise Amtrak policies to
   require recruiters to review background investigations and applications prior to
   employment and to verify that nothing in the background investigation disqualifies
   the applicant from employment. We also recommended that the Chief Human
   Capital Officer establish requirements for background investigations, conduct
   training for employees involved in the hiring process, and award a contract to
   ensure that the investigations are completed in a timely manner and readily identify
   hiring concerns. Amtrak management generally agreed with our recommendations.

Management of Overtime: Best Practice Controls Can Help in Developing Needed Policies and
Procedures (Audit Report No. OIG-A-2013-009, 3/26/2013)

   Amtrak has started to focus management attention on improving controls over the
   approval and use of overtime. However, much work remains to be done, and
   current management controls over the approval and oversight of overtime are




                                                                                        20
   inadequate. This situation leaves the company highly vulnerable to overtime fraud
   and abuse.

   Addressing this long-standing issue requires new approaches to policies and
   procedures and our report identified a number of best practice time and attendance
   controls and risk mitigation approaches. We recommended that Amtrak incorporate
   these practices and approaches into the policies and procedures being developed to
   support the legislative cap overtime waiver and management of overtime in general.
   Amtrak’s Vice President, Operations, and Acting Chief Financial Officer provided
   comments on a draft of this report and concurred with our recommendations.

Ongoing Audits/Inspections and Evaluations (Human Capital Management)

   None.

FY 2014 Potential Audits/Inspections and Evaluations Topics (Human Capital
Management)

      Managing Health Care Payments. The objective of this review would be to review
       Amtrak’s practices for controlling and managing health care payments, compare
       them to industry best practices, and make recommendations to improve the
       efficiency and effectiveness of these practices.

      Short-term Incentive Payments. The objective of this non-audit service would be to
       provide reasonable assurance to the Board of Directors that Amtrak met the
       performance metrics for non-agreement employees to earn short-term incentive
       payments for FY 2013, before the Board approves the payments.

      Executive Compensation. The objective of this review would be to develop
       comparative data on executive compensation levels at similarly-sized quasi-
       governmental entities for Amtrak’s Board of Directors in its compensation
       deliberations.

Potential Focus Areas beyond FY 2014 (Human Capital Management)

   Potential topics for work beyond FY 2014 in the human capital management area
   include continued focus in areas related to Amtrak’s management of overtime and
   employee absenteeism, and a follow-up evaluation of our previous work on human
   capital management and employee development.




                                                                                       21
SAFETY AND SECURITY
Since 2005, the Department of Homeland Security Transit Security Grant Program has
provided more than $97 million in grant funding to Amtrak to protect critical
infrastructure. The Amtrak Police Department has used this grant funding for planning
and assessments, infrastructure protection, training and public awareness, and
exercises. Our work in this area will focus on Amtrak’s efforts to improve the efficiency
and effectiveness of Amtrak’s safety and security policies and practices.

Recently Issued Reports (Safety and Security)

Railroad Safety: Amtrak is Not Adequately Addressing Rising Drug and Alcohol Use by
Employees in Safety-Sensitive Positions (Evaluation Report OIG-E-2012-023, 9/27/2012)

   We initiated this evaluation to determine whether Amtrak is ensuring that its
   employees in safety-sensitive positions are complying with federal regulations
   governing the use of drugs and alcohol. Specifically, we evaluated (1) the extent to
   which Amtrak’s random testing shows that these employees are using drugs and
   alcohol, and (2) whether Amtrak is exercising due diligence in controlling the use of
   drugs and alcohol by these employees.
   We found that Amtrak’s employees in safety-sensitive positions are testing positive
   for drugs and alcohol more frequently than their peers in the railroad industry, and
   the rate has been generally trending upward since 2006. Furthermore, Amtrak is not
   exercising due diligence to control the use of drugs and alcohol by these employees.
   To manage the risks associated with its increasing rate of drug and alcohol use and
   to meet the federal requirement for exercising due diligence, we recommended that
   Amtrak take a number of steps, including:
         Increase the rate at which it randomly tests its employees in safety-sensitive
          positions.
         Routinely review testing data.
         Demonstrate that senior management is engaged in the drug and alcohol
          program.
         Ensure that the physical observation program meets or exceeds Federal
          Railroad Administration program guidance.
         Ensure that the supervisors of these employees are adequately trained to
          identify signs and symptoms of drug and alcohol use and that their training
          is properly recorded.
   Amtrak’s President and CEO concurred with all of our recommendations and
   established time frames in which Amtrak will implement them. We considered his




                                                                                        22
      comments responsive to our recommendations and plan to follow up on the
      company’s implementation.

Railroad Safety: Amtrak Has Made Progress in Implementing Positive Train Control, but
Significant Challenges Remain (Evaluation Report No. OIG-E-2013-003, 12/20/2012)

      In October 2008, Congress passed the Rail Safety Improvement Act of 2008 (RSIA),2
      which requires each railroad hosting intercity or commuter rail passenger service to
      install and operate a Positive Train Control (PTC) safety system by December 31,
      2015. The objective of this evaluation was to report on the extent to which Amtrak is
      addressing the most significant challenges to successfully implementing PTC by the
      congressional deadline.

      We found that Amtrak is attempting to mitigate the risks in various ways, but
      overcoming some of these challenges by the end of 2015 will require increased
      attention and emphasis. These formidable challenges are interrelated; successfully
      addressing them will require a well-coordinated and integrated effort across several
      Amtrak departments to implement PTC by the deadline and achieve the safety
      benefits derived from PTC systems envisioned in RSIA.

      Therefore, we made eight recommendations to improve the management of PTC
      implementation, including that the Vice President, Operations, designate a senior
      executive to manage the overall program or fully empower the Deputy Chief
      Engineer for Communications and Signals with clear responsibility and authority to
      manage implementation of PTC as an integrated program.

      Amtrak’s Vice President, Operations, provided us with comments on a draft of this
      report in which he concurred with all of our recommendations and established time
      frames in which Amtrak will implement them.

Ongoing Audits/Inspections and Evaluations (Safety and Security)

      None

FY 2014 Potential Audits/Inspections and Evaluations Topics (Safety and
Security)

     Safe-2-Safer. The Safe-2-Safer Program is an enterprise-wide safety and culture
      improvement effort designed to transform Amtrak into a behavior-based
      organization that systematically reduces risk at all work locations. Amtrak is

2
    Public Law 110-432, Division A, was enacted on 10/6/2008.




                                                                                         23
    planning to expand the program in order to leverage the program’s infrastructure
    and systems to drive similar behavior changes to improve customer service and
    business performance. The objective of this evaluation would be to review the
    program’s performance to date and identify lessons learned to help facilitate the
    success of its planned expansion.

   Survey of Amtrak’s Security Program. The objective of this audit is to conduct a high-
    level review of Amtrak’s Security Program to understand its objectives and scope.
    We will then use this survey to identify topics for future, more focused, audits and
    evaluations.

Potential Focus Areas beyond FY 2014 (Safety and Security)

    Potential topics for work beyond FY 2014 in the safety and security area include a
    follow-up review of Amtrak’s progress implementing Positive Train Control and
    focused reviews in specific security areas.




                                                                                              25




                                                                                         24
ASSET MANAGEMENT
Amtrak owns more than 2,000 pieces of rail equipment, with a replacement value of
over $12 billion. In addition, the company owns more than 1,300 facilities, 1,186 bridges,
17 tunnels, over 600 miles of right-of-way—and the associated signals, catenary, and
track—valued at a total of over $17 billion. Optimizing the utilization of these assets
will help Amtrak achieve its corporate goals and improve its overall financial health.
Our work will focus on identifying opportunities for Amtrak to improve the utilization
and management of its physical assets.

Recently Issued Reports (Asset Management)

Asset Management: Integrating Sound Business Practices into its Fleet Planning Process Could
Save Amtrak Hundreds of Millions of Dollars on Equipment Procurements (Evaluation Report
No. OIG-E-2013-014, 5/28/2013)

    In March 2012, Amtrak issued a plan to spend $13 billion over the next 15 years to
    replace and augment most of its current fleet of locomotives and cars.3 The
    objectives of this review were to evaluate the extent to which Amtrak’s fleet
    planning process had (1) adequately determined the corporation’s equipment needs,
    (2) determined a cost-effective approach to meeting equipment needs, and (3)
    integrated its equipment acquisition plans with its financial plans.

     We found that:

            Although Amtrak has taken encouraging initial steps to analyze ridership
             demand for its next generation of high-speed rail train sets, it has not
             developed a disciplined process for determining its equipment needs. As a
             result, it still has not adequately analyzed its other equipment requirements.

            Amtrak has not demonstrated that replacing its current equipment with new
             equipment will increase revenue or reduce maintenance costs sufficient to
             outweigh the expense of procuring new equipment. Similarly, Amtrak has
             not adequately analyzed options to refurbish or repurpose existing
             equipment rather than buying new equipment, or to incorporate more
             efficient equipment types into its fleet, such as multi-level passenger cars.



3
  Amtrak’s Fiscal Year (FY) 2012 Fleet Strategy Version 3.1: Building a Sustainable Fleet for the Future of America’s
Intercity and High Speed Railroad included planned acquisitions of 392 locomotives, 1,373 passenger cars, 80 auto-
carriers, and 20 high-speed train sets.




                                                                                                                  25
          Amtrak did not adequately integrate its fleet acquisition plans with its
           strategic plans, most notably its financial plans. As a result, it is unclear how
           Amtrak plans to fund future equipment acquisitions because the funding
           requirements in the FY 2012 Fleet Strategy were inconsistent with the 5-year
           financial plan.

   To assist management’s efforts to improve the fleet planning process, we
   recommended that Amtrak’s President and Chief Executive Officer implement the
   recommendations from our prior report to ensure that the weaknesses in Amtrak’s
   fleet planning processes are addressed, prohibit future equipment purchases until
   these weaknesses are addressed, review the ongoing electric locomotive
   procurement to determine whether funds could be better spent elsewhere, and
   consider asking Congress to suspend any requirements for an FY 2013 fleet strategy
   document for a year in order to address the recommendations in this report. On
   May 14, 2013, Amtrak’s President and Chief Operating Officer provided comments
   in which he generally concurred with all of our recommendations.


Real Property Management: Applying Best Practices Can Improve Real Property Inventory
Management Information (Audit Report No. OIG-A-2013-015, 6/12/2013)

   To identify opportunities for improvement, we compared best practices for real
   property inventory management information systems to Amtrak’s practices. Real
   property management responsibilities at Amtrak are divided among a number of
   departments. However, none of the departments has a comprehensive real property
   inventory management information system that could be used to accomplish all the
   diverse strategic real property goals of all departments. Further, the real property
   inventory management information the departments maintain is incomplete and
   contains inconsistent data.

   Finance department officials told us that the corporation has efforts underway to
   improve the quality of its real property information. We recommended that Amtrak
   take action to develop a comprehensive real property inventory management
   information system considering the best practices identified in this report. The
   President and Chief Executive Officer agreed with our recommendation.


Ongoing Audits/Inspections and Evaluations (Asset Management)

      Northeast Corridor Infrastructure Project Planning and Development. Our overall
       objective is to keep apprised of NEC infrastructure planning and implementation
       issues. Our specific objective is to provide stakeholders timely information and




                                                                                           26
        recommendations based on an independent review of emerging issues. The first
        issue we are reviewing is the progress and challenges in managing and
        implementing the ongoing Concrete Casing project, which is part of the planned
        Gateway Program.

       Rolling Stock Fleet Utilization. Amtrak carries about 75,000 riders per day on up to
        300 daily trains, using an active fleet of more than 1,400 cars and 350
        locomotives. To capture additional demand on trains with high ridership,
        Amtrak is proposing new fleet purchases. If Amtrak could better allocate its
        existing fleet to match its demand, it could reduce the new fleet purchases
        required. This evaluation is reviewing Amtrak’s current practices for fleet
        allocation and utilization and comparing them with best practices at other
        transportation companies.


FY 2014 Potential Audits/Inspections and Evaluations Topics (Asset
Management)

   Next Generation High-speed Train set Procurement. Amtrak is planning to award a
    contract to purchase new high-speed train sets for the Northeast Corridor before the
    end of FY 2014. The objective of this evaluation would be to review the business case
    for the procurement to determine if it adequately supports the purchase and if the
    business case has been developed in line with the sound business practices that we
    have identified in our previous reports.

   Management of Vehicles and Construction Equipment. Amtrak owns or leases about
    2,300 vehicles and about 1,600 pieces of construction equipment. This evaluation
    would review how Amtrak manages and controls these vehicles and equipment,
    compare Amtrak’s practices with industry best practices, and identify ways that
    Amtrak could save money by more efficient management of these assets.

Potential Focus Areas beyond FY 2014 (Asset Management)

    Potential topics for work beyond FY 2014 in the asset management area include
    examining the management of Amtrak’s infrastructure assets in the Northeast
    Corridor, including Amtrak’s plan for addressing the backlog of maintenance
    required, and its plans for future capacity improvements.




                                                                                          27
          OIG MISSION AND CONTACT INFORMATION

Amtrak OIG’s Mission   The Amtrak OIG’s mission is to provide independent,
                       objective oversight of Amtrak’s programs and operations
                       through audits, inspections, evaluations, and
                       investigations focused on recommending improvements
                       to Amtrak’s economy, efficiency, and effectiveness;
                       preventing and detecting fraud, waste, and abuse; and
                       providing Congress, Amtrak management, and Amtrak’s
                       Board of Directors with timely information about
                       problems and deficiencies relating to Amtrak’s programs
                       and operations.



Obtaining Copies of    Available at our website: www.amtrakoig.gov
OIG Reports and
Testimony
To Report Fraud,       Report suspicious or illegal activities to the OIG Hotline
Waste, and Abuse       (you can remain anonymous):

                       Web:     www.amtrakoig.gov/hotline
                       Phone: 800-468-5469
OIG Contact            Ted Alves, Inspector General
Information            E-mail: Ted.Alves@amtrakoig.gov

                       Tom Howard, Deputy Inspector General
                       E-mail: Tom.Howard@amtrakoig.gov

                       David Warren, Assistant Inspector General, Audits
                       E-mail: david.warren@amtrakoig.gov

                       Calvin Evans, Assistant Inspector General, Inspections and
                       Evaluations
                       E-mail: calvin.evans@amtrakoig.gov

                       All:
                       Mail:     10 G Street NE, Suite 3W-300
                                 Washington D.C. 20002
                       Phone:    202-906-4600




                                                                                    28
